UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
November 19,2020
Before:

DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
FADEEL SHUHAIBER,
Plaintiff - Appellant

No. 19-3244

v.
ILLINOIS DEPARTMENT OF CORRECTIONS,
Defendant - Appellee

Originating Case Information:
District Court No: l:18-cv-03289
Northern District of Illinois, Eastern Division
District Judge Edmond E. Chang
The judgment of the District Court is AFFIRMED, with costs, in accordance with the
decision of this court entered on this date.

form name: c7_FinalJudgment(form ID: 132)

19-3244

Faded Shuhaiber
#A209957429
MCHENRY COUNTY JAIL
2200 N. Seminary Avenue
Woodstock, IL 60098-0000

3ln ihz

IHntfdt States (Emtrf of Appeals
3fcr % jigtotfi Circuit
No. 19-3244
Fadeel Shuhaiber,
Plain tiff-Appellan t,
v.
Illinois Department of Corrections,
Defendant-Appellee.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. l:18-cv-03289 — Edmond E. Chang, Judge.

Submitted September 17,2020* —
Decided November 19,2020

Before Hamilton, Brennan, and Scudder, Circuit Judges.
Scudder, Circuit Judge. Fadeel Shuhaiber is confined to a
wheelchair. Following the district court's dismissal of claims
*We have agreed to decide the case without oral argument because the
briefs and record adequately present the facts and legal arguments, and
oral argument would not significantly aid the court. Fed. R. App. P.
34(a)(2)(C).

No. 19-3244

2

he brought against the Illinois Department of Corrections un­
der the Americans with Disabilities Act and Rehabilitation
Act, Shuhaiber appealed and, based on his impoverished sta­
tus, sought permission to proceed on appeal without prepay­
ing the requisite filing fee. By the time he filed the appeal,
Shuhaiber, a native of the United Arab Emirates, had been
transferred to the custody of the Department of Homeland Se­
curity for removal from the United States. The change in cus­
tody matters because Shuhaiber, as a frequent filer of federal
lawsuits, had accumulated more than three strikes under the
Prison Litigation Reform Act for filing frivolous lawsuits, and
therefore would have had to prepay the filing fee to appeal
the district court's dismissal of his claims. Doubting that
Shuhaiber was still a "prisoner," the district court granted his
motion to proceed in forma pauperis.
We agree and hold, in alignment with all other circuits to
have addressed the question, that the appellate filing-fee bar
does not apply where, as here, the appellant is being held by
immigration authorities and thus no longer is a "prisoner"
within the meaning of the PLRA. That conclusion does not
lead very far for Shuhaiber, however, as the district court was
also right to dismiss his claims, leaving us to affirm.
I
Shuhaiber's complaint focused on events during his stay
at the Stateville Northern Reception and Classification Center
in Joliet, Illinois. He alleged that the institution failed to ac­
commodate his disability by confining him to a cell unsuited
to an inmate confined to a wheelchair. Not only was the cell
too small to maneuver easily within, but, as Shuhaiber con­
tended, he struggled to get into his lower bunk and use the
table. He likewise complained of being transported to

No. 19-3244

3

physical therapy appointments in vans that were not ADAcompliant, leaving him to depend on an officer to lift him into
the vehicles.
Invoking Federal Rule of Civil Procedure 12(b)(6), the De­
partment of Corrections moved to dismiss Shuhaiber's com­
plaint. The district court granted the motion and dismissed
the complaint without prejudice, determining that Shuhaiber
failed to allege that he was deprived of access to facilities or
services or that anything about the Department's vans caused
him to miss medical appointments. In so ruling, the district
court gave Shuhaiber a month within which to file an
amended complaint clarifying and more fully advancing his
allegations.
During the ensuing 30 days, Shuhaiber finished serving
his sentence and was transferred to the custody of the Depart­
ment of Homeland Security pending ongoing removal pro­
ceedings. This changed circumstance resulted in the district
court giving Shuhaiber another month within which to file an
amended complaint. After that new deadline passed, Shuhai­
ber sought another extension of time while simultaneously in­
dicating he wanted to appeal the court's prior dismissal order.
We dismissed Shuhaiber's appeal for non-payment of
fees. Order, Shuhaiber v. III. Dep't of Con., No. 19-2344 (7th Cir.
Oct. 4,2019). The district court reacted by then entering a final
order dismissing Shuhaiber's case with prejudice on the basis
that he had failed to respond to the prior order allowing an
amended complaint. Shuhaiber appealed from that final or­
der. Recognizing that Shuhaiber was no longer a prisoner
serving a criminal sentence, the district court granted his re­
quest to proceed in forma pauperis.

No. 19-3244

4
II

We begin by addressing whether Shuhaiber's in forma pau­
peris status on appeal is proper. The Prison Litigation Reform
Act, which everyone calls the PLRA, places several re­
strictions on prisoners' access to federal civil litigation. Rele­
vant here is the PLRA's "three strikes" provision, which pre­
vents prisoners from appealing a judgment in a civil action
without the prepayment of the filing fee if they have accumu­
lated three or more strikes and do not allege circumstances in
which they face an imminent danger of physical harm.
28 U.S.C. § 1915(g); see Kalinowski v. Bond, 358 F.3d 978, 978
(7th Cir. 2004) ("[T]he ... three-strikes rule[] applies] to pris­
oners only.").
The question is whether Shuhaiber, upon leaving the cus­
tody of the Department of Corrections and being detained by
DHS (by which time he had accumulated five "strikes"), re­
mained a "prisoner" within the meaning of the PLRA. Con­
gress has answered the question by defining a "prisoner" as
"any person incarcerated or detained in any facility who is
accused of, convicted of, sentenced for, or adjudicated delin­
quent for, violations of criminal law or the terms and condi­
tions of parole, probation, pretrial release, or diversionary
program." 28 U.S.C. § 1915(h) (emphasis added). The analysis
from here is straightforward, for once Shuhaiber entered
DHS's custody on the immigration detainer he ceased being
confined for any violation of criminal law—indeed, he had
finished serving his Illinois sentence. What is more, "[immi­
gration] removal proceedings are civil, not criminal," in na­
ture. Gutierrez-Berdin v. Holder, 618 F.3d 647, 652 (7th Cir.
2010) (citing INS v. Lopez-Mendoza, 468 U.S. 1032, 1050-51
(1984)).

5

No. 19-3244

Like the three other circuits to have considered the ques­
tion, we too now conclude that a person held only on an im­
migration detainer is not a "prisoner" within the meaning of
the PLRA and therefore is not subject to its filing fee require­
ments. See Agyeman v. INS, 296 F.3d 871,885-86 (9th Cir. 2002)
(analyzing PLRA's definition of prisoner and nature of depor­
tation proceedings and reaching the same conclusion); LaFontant v. INS, 135 F.3d 158,165 (D.C. Cir. 1998) (employing same
reasoning and reaching the same conclusion); Ojo v. INS,
106 F.3d 680, 682-83 (5th Cir. 1997) (same).
The upshot is that allowing Shuhaiber to proceed in forma
pauperis does not violate the PLRA.
Ill
On the merits, the district court was right to dismiss with
prejudice Shuhaiber's claims under the ADA and Rehabilita­
tion Act. To state a claim under the ADA or Rehabilitation
Act, Shuhaiber had to allege facts plausibly suggesting that he
is a qualified person with a disability and "was denied the
benefits of the services, programs, or activities" of the Center
because of his disability. Wagoner v. Lemmon, 778 F.3d 586,592
(7th Cir. 2015) (citation and quotation marks omitted). He
failed to do so. Although alleging difficulties with his cell, the
showers, and the vans, Shuhaiber did not say anything about
his particular circumstances Or accommodations that kept
him from accessing the Center's facilities or services on the
same basis as other inmates. See id. at 592-93; Jaros v. III. Dep’t
ofCorr., 684 F.3d 667, 672 (7th Cir. 2012). And, while invited
by the district court to amend his complaint to add allegations
about missing medical appointments because of the inade­
quacy of the Center's vans, Shuhaiber never did so. See Wag­
oner, 778 F.3d at 593 (concluding that the inconvenience of

No. 19-3244

6

transport in a noncompliant van does not amount to denial of
services).
Further, Shuhaiber is mistaken with his contention that
the district court held him to a fact pleading requirement at
odds with Federal Rule of Civil Procedure 8(a). Nothing in the
district court's orders even hints at a requirement that Shuhai­
ber plead facts corresponding to the elements of his ADA and
Rehabilitation Act claims and theory of proof. See Chapman v.
Yellow Cab Coop., 875 F.3d 846, 848 (7th Cir. 2017) ("To the ex­
tent the district court demanded that complaints plead facts—
not only facts that bear on the statutory elements of a claim,
but also facts that bear on judicially established standards—it
was mistaken.").
To be sure, Federal Rule of Civil Procedure 12(e) allows
district courts to ask a plaintiff to provide "details that enable
the defendants to respond intelligently and the court to han­
dle the litigation effectively." Id. at 849. If a plaintiff does not
comply with a reasonable order for such details, a district
court may dismiss the complaint with prejudice. Id. That is all
that happened here, and, in the end, the district court commit­
ted no error in dismissing Shuhaiber's case with prejudice.
Finally, it is too late for Shuhaiber to use his appellate
briefs to submit documents purporting to demonstrate that he
missed three physical therapy appointments (out of thirtyeight) due to the lack of an ADA-compliant van. See id. These
facts, if true, were known to Shuhaiber all along, and he
should have included them in an amended complaint. The
time has come and gone for him to do so, however.
For these reasons, we AFFIRM.

Case: l:18-cv-03289 Document #: 26 Filed: 04/29/19 Page 1 of 5 PagelD #:87

United States District Court
for the

Northern District of Illinois
Eastern Division

Fadeel Shuhaiber (Y-23584),
Plaintiff,
v.
Ill. Dep’t of Corr.,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 18 C 3289
Judge Edmond E. Chang

Order
Fadeel Shuhaiber, now a prisoner at Lawrence Correctional Center, alleges
that he was discriminated against based on his disability discrimination when he was
housed at Stateville NRC, a receiving facility for the Illinois Department of
Corrections. Pending is Defendant’s motion to dismiss the complaint. R. 18.
I. Background
Shuhaiber, who uses a wheelchair for mobility, was housed at Stateville NRC
from August 7, 2017, to July 27, 2018. See Pl.’s Resp., R. 22, at 2; Compl., R. 8 at 10.
During this time, he was housed in a cell that allegedly did not comply with the
dimensions required by the Americans with Disabilities Act and the Rehabilitation
Act. Compl. at 10. Shuhaiber contends that the cell in which he was housed was “very
small” and that he could not use a table in the cell because it had a bench. Id. Because
it was difficult for him to use the table, he had to eat or write in his bed. Id. at 11.
Shuhaiber alleges that the cell had bunk beds, and it was difficult to get into the
lower bunk “and sometimes I ha[d] to lower my head or hit my shoulder trying to get
to bed.” Id. at 10. Other inmates would step on his bed in order to get up or down from
the top bunk “and usually ha[d] no medical problems to be housed in a medical cell.”
Id.
Shuhaiber also complains about the positioning of the sink and toilet in the
cell. Id. at 11. It appears that the sink’s location made it difficult to transfer into his
bunk (although he apparently was able to do so). Id. He also alleges that because of
the cramped quarters, he had to go in reverse in his wheelchair to enter or exit the
cell. Id. It also was difficult for both inmates to move around in the cell at the same
time. Id.

Case; l:18-cv-03289 Document #: 26 Filed; 04/29/19 Page 2 of 5 PagelD #:88

With regard to the shower, Shuhaiber states that it lacked a “fixed chair for
safe transfer,” the water button was too high for him to easily reach, and the showers
were too small for his wheelchair to fit inside. Id.)
Next, Shuhaiber contends that when he was sent from Stateville NRC to the
main prison for physical therapy or visits, he often was not transported in an
accessible van, but in a standard van. Id. When he used the standard van, officers
would carry him from the wheelchair into the van. Id. The body of the complaint does
not assert that Shuhaiber missed any appointments due to use of the standard van,
but Shuhaiber generally refers to “missed appointments” in the relief section of the
complaint. Id. at 12.
II. Standard of Review
A motion under Rule 12(b)(6) challenges the sufficiency of the complaint. See
Hallinan v. Fraternal Order of Police of Chi. Lodge No. 7, 570 F.3d 811, 820 (7th Cir.
2009). Under Rule 8(a)(2), a complaint must include “a short and plain statement of
the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). The
short and plain statement under Rule 8(a)(2) must “give the defendant fair notice of
what the claim is and the grounds upon which it rests.” Bell Atlantic Corp. u.
Twombly, 550 U.S. 544, 555 (2007) (citation omitted). Under federal notice pleading
standards, a plaintiffs “[f]actual allegations must be enough to raise a right to relief
above the speculative level.” Twombly, 550 U.S. at 555. Put differently, a “complaint
must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’” Ashcroft u. Iqbal, 556 U.S. 662, 678 (2009) (quoting Twombly,
550 U.S. at 570). “In reviewing the sufficiency of a complaint under the plausibility
standard, [courts] accept the well-pleaded facts in the complaint as true.” Alam v.
Miller Brewing Co., 709 F.3d 662, 665-66 (7th Cir. 2013). Courts also construe pro se
complaints liberally. See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam). That
said, the allegations that are entitled to the assumption of truth are those that are
factual, rather than mere legal conclusions. Iqbal, 556 U.S. at 678-79.
III. Analysis
In moving to dismiss, Defendant argues that Shuhaiber has not alleged any
facts suggesting that he was deprived of any services, programs, or activities because
of his disability. Def.’s Mem., R. 18-1, at 4. Shuhaiber contends in his response that
he was deprived “from accessing cells and showers that are ADA accessible.” Pl.’s
Resp., R. 22, at 1-2.
Shuhaiber is attempting to proceed with claims under Title II of the ADA, 42
U.S.C. §§ 12131-12165, and the Rehabilitation Act of 1973, 29 U.S.C. § 794. The relief
available under these statutes is co-extensive. See Jaros v. III. Dep’t of Corr., 684 F.3d
667, 671 (7th Cir. 2012) (citing 29 U.S.C. § 794A, 42 U.S.C. § 12117). The difference
2

Case: l:18-cv-03289 Document #: 26 Filed: 04/29/19 Page 3 of 5 PagelD #:89

is that the Rehabilitation Act applies when the relevant state agency (here, the
Illinois Department of Corrections) accepts federal funding, which it does. Id. To state
a claim under either statute, Shuhaiber must adequately allege that: (1) he is a
qualified individual with a disability; (2) who was denied the benefits of a public
entity’s services, programs, or activities; and (3) the exclusion, denial of benefits, or
discrimination was by reason of a disability. 42 U.S.C. § 12132; see Wagoner u.
Lemmon, 778 F.3d 586, 592 (7th Cir. 2015). Failure to make reasonable
accommodations can amount to a denial of access to programs or activities. Jaros,
684 F.3d at 672 (“Refusing to make reasonable accommodations is tantamount to
denying access; although the Rehabilitation Act does not expressly require
accommodation, the Supreme Court has located a duty to accommodate in the statute
generally.”).
Defendant’s motion targets only the second requirement: Shuhaiber has not
adequately alleged that he was denied access to any programs or services, but rather
that he was merely inconvenienced. In so arguing, the defense relies on Wagoner, 778
F.3d at 592-93. In that opinion, the Seventh Circuit held that a prisoner’s claims
about the condition of his wheelchair and his improper transportation in an illequipped van were “a poor fit” for the ADA and the Rehabilitation Act because he did
not allege that these failures “denied him access to any services or programs.” Rather,
he alleged only that he was “inconvenienced with longer waits and humiliation,” such
as having to crawl off the regular van. Id. at 593.
Defendant argues that the reasoning of Wagoner is directly applicable to
Shuhaiber’s claim that he was carried onto the regular van for his trips between NRC
and Stateville. Def.’s Mem. at 4. Defendant further contends that this reasoning
extends to the complaints about the size of Shuhaiber’s cell, again because he does
not allege that he was denied access to his cell or his bed due to his disability. Id. at
4-5. Same goes for the showers: again, Defendant argues that Shuhaiber does not
allege that he was denied access to the showers, but rather that the layout made use
of the showers more difficult for him. Id. at 5-6.
In response, Shuhaiber focuses on his general contention that the prison was
not “ADA compliant.” See Pl.’s Resp. at 2. But he does not elaborate on how the alleged
lack of compliance denied or hindered his access to programs, services, or facilities at
the prison. Shuhaiber’s response actually says that he was able to use the shower and
the bed. See Pl.’s Resp. at 1. Similarly, while Shuhaiber referred to “missed
appointments” in the relief section of his complaint, neither the body of the complaint
nor the response contain any specific allegations about missed appointments or
visitations for lack of an accessible van. Rather, in his response, Shuhaiber says only
that he should not have been forced to get out of his wheelchair and use a regular
seat on the van. Id. at 2.

3

Case: l:18-cv-03289 Document#: 26 Filed: 04/29/19 Page 4 of 5 PagelD #:90

On the claim about the van, Defendant is right: Shuhaiber’s allegations are
similar to those made by the unsuccessful inmate in Wagoner. Yes, Shuhaiber was
inconvenienced by having to be carried onto a regular van, but he does not allege that
his access to physical therapy or visitation was prevented or limited by this
inconvenience. If it is Shuhaiber’s contention that he did miss physical therapy or
visitation appointments due to the lack of an accessible van, then he must make that
clear with specific factual allegations in an amended complaint (bearing in mind that
he must have a reasonable basis to make that allegation and that he eventually will
have to prove that he missed appointments).
This is true too of the complaints about the cell and the showers. Shuhaiber
only labels the cell and the showers as not ADA-compliant; but the prison itself “is
not a program or activity.” Jaros, 684 F.3d at 672. Rather, “[pjublic entities, such as
correctional facilities, must ‘take reasonable measures to remove architectural and
other barriers’ that deny access” to programs, activities, or services. Clemons v. Dart,
168 F.Supp.3d 1060, 1066 (N.D. Ill. 2016) (quoting Tennessee v. Lane, 541 U.S. 509,
531 (2004) (citing 42 U.S.C. § 12131(2))). It is true that showers and meals available
to inmates qualify as programs and activities under the statute, see Jaros, 684 F.3d
at 672, and accessible beds might qualify as well, see Simmons v. Godinez, No. 16 C
4501, 2017 WL 3568408, at *6 (N.D. Ill. Aug. 16, 2017). It is also true that a complete
denial of services is not required to state a claim. See Jones v. Olson, No. 14-cv-3068,
2016 WL 1060831, at *5-*6 (C.D. Ill. March 17, 2016) (refusing to vacate jury verdict
in favor of prisoner who was allowed access to the library, but whose access was
hindered due to prohibition on using nearby bathroom). As explained in Jones, the
relevant statutes provide that inmates with disabilities must be allowed to access
programs and services “on the same basis as other inmates.” Id. at *5 (citing Jaros,
684 F.3d at 672.) The regulations to these statutes prohibit the provision of a service
to a disabled individual “that is not equal to that afforded others.” Id. (citing 28 C.F.R.
§ 35.130(h); 29 C.F.R. § 32.4(b)(ii)-(iii)).
On that substantive standard, the current complaint does not adequately
allege a denial of equal access to services based on cell size or access to showers.
Shuhaiber was able to access the bed in his cell despite the cramped quarters. With
regard to the showers, Shuhaiber targets the lack of a “fixed chair for safe transfer”
and the height of the water button made it difficult to access. See Pl.’s Compl. at 11.
But those facts are not the equivalent of alleging that he was unable to shower as
often—that is, on an equal basis—as non-disabled prisoners. See Harper v. Dart, No.
14 C 1237, 2015 WL 6407577, at *4 (N.D. Ill. Oct. 21, 2015) (allegation that inmate
had “great difficulty” showering, using the toilet, and getting into bed was insufficient
to state an ADA claim because it did not explain how the plaintiff was denied equal
access).
For these reasons, Defendant’s motion to dismiss is granted, but for now the
dismissal is without prejudice. If Shuhaiber believes that he can fix the problems
4

\3
Case: l:18-cv-03289 Document #: 26 Filed: 04/29/19 Page 5 of 5 PagelD #:91

explained in this Order, then may submit a proposed amended complaint by May 28,
2019. If no amended complaint is submitted, then the dismissal will convert to a
dismissal with prejudice and final judgment will be entered. The status hearing of
May 7, 2019 is reset to June 14, 2019, at 8:30 a.m. (to track the case only, no
appearance is required).
ENTERED:

s/Edmond E. Chang
Honorable Edmond E. Chang
United States District Judge
DATE: April 29, 2019

5

i'i

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
January 21, 2020
By the Court:
FADEEL SHUHAIBER,
Plaintiff - Appellant
No. 19-3244

v.

ILLINOIS DEPARTMENT OF CORRECTIONS,
Defendant - Appellee
Originating t asc Information:

District Court No: l:18-cv-03289
Northern District of Illinois, Eastern Division
District Judge Edmond E. Chang

On January 14, 2020, the district court granted the appellant leave to proceed in
forma pauperis on appeal. In order to permit the appeal to proceed, it is requested that
the district court assess an initial partial filing fee for the appeal and to notify this court
when the partial fee has been collected. See 28 U.S.C. § 1915(b)(1).
•-* - -

EXECUTIVE ORDERS

Executive Order on Combating Anti-Semitism
LAW & JUSTICE

Issued on: December 11,2019
★

★

★

By the authority vested in me as President by the Constitution and the laws of the United States of
America, it is hereby ordered as follows:

Section 1. Policy. My Administration is committed to combating the rise of anti-Semitism and antiSemitic incidents in the United States and around the world. Anti-Semitic incidents have increased
since 2013, and students, in particular, continue to face anti Semitic harassment in schools and on
university and college campuses.

Title VI of the Civil Rights Act of 1964 (Title VI), 42 U.S.C. 2000d et seq., prohibits discrimination on
the basis of race, color, and national origin in programs and activities receiving Federal financial
assistance. While Title VI does not cover discrimination based on religion, individuals who face
discrimination on the basis of race, color, or national origin do not lose protection under Title VI for
also being a member of a group that shares common religious practices. Discrimination against
Jews may give rise to a Title VI violation when the discrimination is based on an individual’s race,
color, or national origin.

It shall be the policy of the executive branch to enforce Title VI against prohibited forms of
discrimination rooted in anti-Semitism as vigorously as against all other forms of discrimination
prohibited by Title VI.

Sec. 2. Ensuring Robust Enforcement of Title VI. (a) In enforcing Title VI, and identifying evidence
of discrimination based on race, color, or national origin, all executive departments and agencies
https://www.whitehouse.gov/presidential-actions/executive-order-combating-anti-semitism/

1/3

(b) This order shall be implemented consistent with applicable law and subject to the availability
of appropriations.

(c) This order is not intended to, and does not, create any right or benefit, substantive or
procedural, enforceable at law or in equity by any party against the United States, its departments,
agencies, or entities, its officers, employees, or agents, or any other person.

DONALD J. TRUMP

THE WHITE HOUSE,
December 11,2019.

https://www.whitehouse.gov/presidential-actions/executive-order-combating-anti-semitism/

3/3

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Fadeel Shuhaiber (A-209957429),
Plaintiff,
v.
Bill Prim, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 20 C 50403
Hon. Philip G. Reinhard

ORDER
Plaintiffs application for leave to proceed in forma pauperis [5] is denied for lack of a sufficient
showing of indigence. If plaintiff wants to proceed with this case, he must pre-pay the $400.00 filing fee
by February 3, 2021. Failure to do so will result in summary dismissal of this case. The court defers
screening of plaintiffs complaint [1] pending payment of the filing fee.
STATEMENT
Plaintiff Fadeel Shuhaiber, an immigration detainee held at the McHenry County Jail, brings this
pro se civil rights action under 42 U.S.C. § 1983 and the Americans with Disabilities Act, 42 U.S.C. §
12101, et seq. Plaintiff alleges that jail officials violated his rights by forcing him to clean areas of the jail
despite his physical limitations. By order of October 23, 2020, the court directed plaintiff to submit a
properly completed in forma pauperis (“IFP”) application or pay the full $400.00 filing fee if he wanted to
proceed with this case.
Now before the court is plaintiffs IFP application, in which he states that he has received $3,600
in gifts (presumably, deposits to his trust fund account, although plaintiff does not so specify) and $1,200
in “[ujnemployment, public assistance or welfare” in the past year. (See [5] at pg. 1.) In the last six months,
plaintiff received average monthly deposits of $403.34 to his trust fund account. {Id. at pg. 2.)
Plaintiff also attached a copy of his trust fund statement from the McHenry County Jail, which
shows that plaintiff consistently receives a $150 deposit to his trust fund account about every two weeks,
going back to January 31,2020. {See id. at pgs. 3-7.) Plaintiff also received a $1,200 deposit identified as
“mail credit” on September 24, 2020. {Id. at pg. 6.) This may be the public assistance to which plaintiff is
referring, although it is unclear.
As of September 25, 2020, plaintiff had atrust fund balance of $1,350.95. {Id.) He made a “thirdparty release” in the amount of $930 on Sept. 30, 2020, and another in the amount of $110 on October 8,
2020. {Id.) The trust fund statement does not indicate to whom these payments were made or for what
purpose. As of November 10, 2020, plaintiff had only $8.06 on hand. {Id. at pg. 2.) Other than the large
withdrawals outlined above, plaintiff appears to have spent most of his funds on telephone time and various
“order debits,” possibly commissary purchases, although this is unclear.
As stated in this court’s prior order, plaintiff, as an immigration detainee, does not fall within the
Prison Litigation Reform Act’s definition of “prisoner.” See 28 U.S.C. § 1915(h) (defining “prisoner” as
“any person incarcerated or detained in any facility who is accused of, convicted of, sentenced for, or

adjudicated delinquent for; violations of criminal law or the terms and conditions of parole, probation,
— F.3d —, 2020
pretrial release, or diversionary program.”); see also Shuhaiber v. III. Dep't of Corr.
WL 6791228, at *2 (7th Cir. Nov. 19, 2020). This means that plaintiff is eligible to proceed IFP despite
the fact that he has “struck out” under the PLRA. See id.
However, simply because plaintiff is eligible to proceed IFP does not mean that he is entitled to do
so. A civil litigant ordinarily must pay a statutory filing fee to bring an action in federal court. 28 U.S.C.
§ 1914. If the litigant is indigent, federal law allows the court to authorize commencement of a federal
action without prepayment of the court’s fees upon submission of an affidavit including a statement of
assets showing that the person is unable to pay the filing fee. 28 U.S.C. § 1915(a)(1).
A party need not be entirely destitute to obtain the benefit of proceeding IFP. Wolf v. Comm ’r of
Soc. Sec., No. 3:20-CV-50055, 2020 WL 1675673, at *3 (N.D. Ill. Apr. 6, 2020) (Kennelly, J.) (citing
Atkins v. E.I. DuPont de Nemours & Co., 335 U.S. 331,339 (1948)). Rather, an applicant must demonstrate
that due to his poverty, he cannot afford to pay for the costs of litigation and still provide for himself an any
dependents. Id.
Plaintiff, while not a prisoner as defined by the PLRA, is in government custody, and his basic
necessities are provided by the state. His application does not list any dependents, nor does he list any
outstanding financial obligations other than fees owed to this court. By his own account, plaintiff has
received at least $4,800 in the Jast year. Plaintiffs complaints about having to clean the facility date back
until at least August, meaning that he could have saved to pay the filing fee from the significant deposits
outlined in this order. Under these circumstances, plaintiff is not eligible to proceed IFP.
Cf

♦.

For these reasons, plaintiffs application for leave to proceed IFP is denied and plaintiff must pre­
pay the $400.00 filing fee if he wants to proceed with this case. Payment should be sent to the Clerk of
Court, United States District Court, 219 South Dearborn Street, Chicago, Illinois 60604, attn:; Cashier’s
Desk,: 20th Floor, and must clearly identify plaintiff s name and the case number assigned to this case.
Because plaintiff is responsible for paying the filing fee in this case and in Shuhaiber y. Prim, No.
20 C 50454, the court will give plaintiff 60 days to pay the fee. Failure to do so by the date set forth above
will result in summary dismissal of this matter.
Date: 12/04/2020

ENTER:

United States District Court Judge :

2

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Fadeel Shuhaiber (A-209957429),

)
)

Plaintiff,

)

v.
Bill Prim, et al.,

,
■

Defendants.

■

Case No. 20 C 50454

)
)
)
)

Hon. Philip G. Reinhard

)

■')

'

ORDER
Plaintiffs application for leave.to proceed in forma pauperis and his motion for fee waiver
[3, 4] are denied for lack of a sufficient showing of indigence. If plaintiff wants to proceed with
this case, he must.pre-pay the $400.00 filing fee by February 3, 2021., Failure to do so will result
in summary dismissal of this case. The court defers screening of plaintiff s.complaint [1] pending
payment of the filing fee.
STATEMENT
Plaintiff Fadeel Shuhaiber, an immigration detainee held at the McHenry County Jail,
brings this pro se civil rights action under 42 U.S.C. § 1983 and the Americans with Disabilities
Act, 42 U.S.C. § 12101, et seq. Plaintiff complains that beginning on October 28, 2020, he was
forced to spend twelve days in a cell without a bed and without dayroom time.
Plaintiff has filed a motion for fee waiver and an application for leave to proceed in forma
pauperis (“IFP”). The application for leave to proceed IFP is not on this court’s required form.
Rather, it appears plaintiff has typed a version of a prior form used by the court. Additionally, the
application is inconsistent with an application filed Nov. 16, 2020 by plaintiff in another case,
Shuhaiber v. Prim, No. 20 C 50403. In that case, he disclosed receipt of $1,200 in
“[unemployment, public assistance or welfare” in the past year, but he made no such disclosure
in this case. {See [3] at pg. 2.) Additionally, the trust fund statement attached to the application is
incomplete, as the five-page statement is missing the even pages. {See id. at pgs. 5-7.)
Plaintiffs application therefore paints an incomplete picture of plaintiffs finances.
However, as the application in Shuhaiber v. Prim, No. 20 C 50403, is complete and was filed just
three days before the application in this case, the court will consider the information in that
application rather than order plaintiff to file a properly completed application. However, plaintiff
is warned that intentional misrepresentations on IFP applications warrant dismissal. See Robertson
v. French, 949 F.3d 347, 352 (7th Cir. 2020).
The application in Shuhaiber v. Prim, No. 20 C 50403, [5] at pg. 1, states that plaintiff

received $3,600 in gifts (presumably, deposits to his trust fund account) and $1,200 in
“[unemployment, public assistance or welfare” in the past year.
Plaintiff also attached to that application a complete copy of his trust fund statement from
the McHenry County Jail, which shows that plaintiff consistently receives a $150 deposit to his
trust fund account about every two weeks; going back to January 31, 2020. Plaintiff also received
a $1,200 deposit identified as “mail credit” on September 24, 2020. This may be the public
assistance listed in that application, although it is unclear.
As of September 25, 2020, plaintiff had a trust fund balance of $ 1,350.95. He made a
“third-party release” in the amount of $930 on Sept. 30, 2020, and another in the amount of $110
on October 8,2020. The trust fund statement does not indicate to whom these payments were made
or for what purpose.
As of November 12, 2020, plaintiff had only $3.06 on hand, although he had received
average monthly deposits of $403.34 in the past six months. ([3] at pg. 4.) Other than the large
withdrawals outlined above, plaintiff appears to have spent most of his funds on telephone time
and various “order debits,” possibly commissary purchases, although this is unclear.
Plaintiff also has filed a motion for fee waiver, in which he requests that the court waive
the initial filing fee because he is not subject to the Prison Litigation Reform Act (“PLRA”). ([4].)
It is true that plaintiff, as an immigration detainee, does not fall within the PLRA’s definition of
“prisoner.” See 28 U.S.C. § 1915(h) (defining “prisoner” as “any person incarcerated or detained
in any facility who is accused of, convicted of, sentenced for, or adjudicated delinquent for,
violations of criminal law or the terms and conditions of parole, probation, pretrial release, or
diversionary program.”); see also Shuhaiber v. III. Dep'tofCorr., — F.3d —, 2020 WL 6791228,
at *2 (7th Cir. Nov. 19, 2020). This means that plaintiff is eligible to proceed IFP despite the fact
that he has “struck out” under the PLRA. See id.
However, simply because plaintiff is eligible to proceed IFP does not mean that he is
entitled to do so. A civil litigant ordinarily must pay a statutory filing fee to bring an action in
federal court. 28 U.S.C. § 1914. If the litigant is indigent, federal law allows the court to authorize
commencement of a federal action without prepayment of the court’s fees upon submission of an
affidavit including a statement of assets showing that the person is unable to pay the filing fee. 28
U.S.C. § 1915(a)(1).
A party need not be entirely destitute to obtain the benefit of proceeding IFP. Wolf v.
Comm’r of Soc. Sec., No. 3:20-CV-50055, 2020 WL 1675673, at *3 (N.D. Ill. Apr. 6, 2020)
(Kennedy, J.) (citing Atkins v. E.I. DuPont de Nemours & Co., 335 U.S. 331, 339 (1948)). Rather,
an applicant must demonstrate that due to his poverty, he cannot afford to pay for the costs of
litigation and still provide for himself an any dependents. Id.
Plaintiff, while not a prisoner as defined by the PLRA, is in government custody, and his
basic necessities are provided by the state. His applications do not list any dependents, and the
only financial obligation listed in Shuhaiber v. Prim, No. 20 C 50403, is fees owed to this court.

2

By his own account, plaintiff has received at least $4,800 in the last year. Although the
issue of which he complains in this case, a cell change in late October, arose relatively recently,
plaintiff receives consistent deposits of $150 every other week. He has the means to pay the filing
fee. Under these circumstances, plaintiff is not eligible to proceed IFP.
For these reasons, plaintiff s application for leave to proceed IFP and his motion for fee
waiver are denied. Plaintiff must pre-pay the $400.00 filing fee if he wants to proceed with this
case. Payment should be sent to the Clerk of Court, United States District Court, 219 South
Dearborn Street, Chicago, Illinois 60604, attn: Cashier’s Desk, 20th FJoor, and must clearly
identify plaintiff s name and the case number assigned to this case.
Because plaintiff; is responsible for paying the filing fee in this case and in Shuhaiber v.
Prim, No. 20 C 50403, the court will give plaintiff 60 days to pay the fee. Failure to do so by the
date set forth above will result in summary dismissal of this matter.

ENTER:

Date: 12/04/2020

, United States District Court Judge

v

:i; ■

;

;>

:
;

:

. s !

;

3

;

:

